TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Outreach Has Improved, but More Action Is
                 Needed to Effectively Address Employment-
                    Related and Tax Fraud Identity Theft



                                          March 25, 2008

                              Reference Number: 2008-40-086




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 25, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Outreach Has Improved, but More Action Is
                             Needed to Effectively Address Employment-Related and Tax Fraud
                             Identity Theft (Audit # 200740004)

 This report presents the results of our review of the effectiveness of the Internal Revenue
 Service’s (IRS) actions in assisting taxpayers victimized by identity theft with their current and
 future tax compliance issues and in pursuing action against individuals responsible for
 employment-related and tax fraud identity theft. This audit was conducted as part of our Fiscal
 Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 Identity theft is a growing national problem that increasingly affects tax administration.
 Although the IRS has increased its public outreach efforts, a proactive identity theft prevention
 approach is needed to effectively address employment-related and tax fraud identity theft so
 taxpayers will not continue to be victimized.

 Synopsis
 The IRS has not placed sufficient emphasis on employment-related and tax fraud identity theft
 strategies. Specifically, its prevention strategy does not include pursuing individuals using
 another person’s identity, unless their cases directly relate to a substantive tax or conspiracy
 violation. IRS policy is that the actual crime of identity theft will only be investigated by the
 Criminal Investigation Division if it is committed in conjunction with other criminal offenses
 having a large tax effect.
                 Outreach Has Improved, but More Action Is Needed to Effectively
                    Address Employment-Related and Tax Fraud Identity Theft



During Calendar Years 2005 and 2006, the Federal Trade Commission received 92,570 taxpayer
complaints related to employment-related and tax fraud identity theft.1 Due to the lack of IRS
information related to identity theft, it is not clear whether the Criminal Investigation Division
evaluated or investigated any of these complaints. According to the IRS, the Criminal
Investigation Division does not use the Federal Trade Commission Identity Theft Clearinghouse
data, and any identity theft prosecution recommendations would have been developed from other
sources.
However, identity theft related to tax administration is rarely recommended for prosecution. In
Fiscal Year 2005, only 45 cases recommended for prosecution included a charge of identity theft,
and in Fiscal Year 2006, only 55 cases included this charge. Furthermore, actions taken in
response to employment-related identity theft are not adequate to stop the unlawful use of the
identity. Employers are notified of mismatches between names and Social Security Numbers.
However, if both a taxpayer’s name and Social Security Number are used by another person,
employers are not notified and no further action is taken to stop the continued unlawful use of
the identity.
IRS officials informed us that the IRS is unable to do more to stop continued use of someone’s
identity in employment-related identity theft cases. They stated that the IRS does not have
sufficient enforcement resources to address most of these cases. Moreover, they believe that
employment-related identity theft cases are not the responsibility of the IRS and that it would not
be worthwhile to pursue employment-related identity theft cases for unreported tax liabilities
because the taxes owed on most of these cases are not significant. Further, because of concerns
with the reliability of the data, they do not use the Federal Trade Commission Identity Theft
Clearinghouse to evaluate whether additional actions are needed to address complaints of tax-
related identity theft. We are concerned that if the IRS takes no additional action to stop further
use of another person’s identity, then there is no deterrent to keep the problem from spreading.
The IRS has mainly focused on combating identity theft through public outreach. This included
revising widely used documents to include information on identity theft, creating and
maintaining an identity theft webpage on IRS.gov, and giving numerous identity theft
presentations to the tax preparer community. Nonetheless, its current processes and procedures
have been inadequate in reducing burden for taxpayers victimized by identity theft. For
example:
    •   The Automated Underreporter function contacted taxpayers multiple times for the same
        compliance issues even though these taxpayers’ cases were previously marked as closed
        for identity theft.


1
 The Treasury Inspector General for Tax Administration did not analyze the taxpayer complaints on the Federal
Trade Commission Identity Theft Clearinghouse database. There may be some tax fraud complaints included in this
number resulting from State income tax returns.
                                                                                                              2
                   Outreach Has Improved, but More Action Is Needed to Effectively
                      Address Employment-Related and Tax Fraud Identity Theft



      •    The Automated Underreporter system identity theft closing codes are not recognized by
           the Withholding Compliance function.
In addition, the IRS currently lacks the comprehensive data needed to determine the impact
identity theft is having on tax administration.

Recommendations
We recommended that the Deputy Commissioner for Operations Support coordinate with the
Deputy Commissioner for Services and Enforcement to develop and implement a strategy to
address employment-related and tax fraud identity theft. This should include coordinating with
other Federal agencies such as the Federal Trade Commission and Social Security
Administration to evaluate and investigate identity theft allegations related to tax administration.
The Deputy Commissioner for Operations Support should (1) coordinate with the Deputy
Commissioner for Services and Enforcement to update the Automated Underreporter system to
display prior year closing codes on the individual case screens and (2) create identity theft
closing codes for multiple issue cases that will allow for individual underreporting issues to be
closed as identity theft, and revise Withholding Compliance function case selection criteria to
incorporate special handling of identity theft victims.

Response
IRS management generally agreed with all of our recommendations. However, management also
discussed certain limitations in the actions that it will take. The IRS will continue to update its
strategies to make its efforts more effective and efficient in the areas of identity theft awareness,
prevention, detection and prosecution. IRS management is in the process of developing its
vision for the future of the Privacy, Information Protection and Data Security office.
Management stated that the Criminal Investigation Division is increasing the recommendations
for prosecutions of identity theft cases under traditional statutes within the IRS’ jurisdiction.
However, management does not plan to more actively identify or stop individuals from
committing employment-related identity theft or notify employers of the problem. Management
stated that it is prevented by confidentiality and disclosure provisions in the Internal Revenue
Code2 from taking actions to stop continued use of another person’s identity for employment and
that it is broadly restricted from sharing taxpayer information with third parties. The IRS
provided a copy of our report to the Office of the Assistant Secretary of the Treasury for Tax
Policy to evaluate whether legislative remedy should be sought for this issue.
The IRS agreed that it should continue to improve its business processes and systems to reduce
burden on identity theft victims. In January 2008, the IRS implemented the universal identity

2
    Internal Revenue Code Section 6103.
                                                                                                    3
               Outreach Has Improved, but More Action Is Needed to Effectively
                  Address Employment-Related and Tax Fraud Identity Theft



theft indicator, which is placed on a taxpayer’s account when the taxpayer self-identifies as an
identify theft victim and provides the proper documentation to verify his or her identity. The use
of this code standardizes the identification and tracking of identity theft accounts across all IRS
functions and enables the IRS to centrally track incidents of identity theft, protect revenue
threatened by identity fraud, and reduce taxpayer burden. Management stated that this universal
code eliminates the need to update the Automated Underreporter system case screens and
develop closing codes for multiple issue cases that will allow for individual underreporting
issues to be closed as identity theft. The IRS will develop business rules for various programs,
including the Criminal Investigation Division, Refund Crimes Unit, and the Automated
Underreporter and Withholding Compliance functions, to apply unique treatments to cases when
the universal identity theft indicator is present. The universal identity theft indicator and the
closing codes will also be used as factors in the selection and prioritization of Automated
Underreporter function cases in future years.
In its general discussion of the report, the IRS also provided additional statistics on its criminal
prosecutions related to identity theft. Further, the IRS Privacy, Information Protection and Data
Security office has recently engaged the Federal Trade Commission to collaborate in outreach
activities and has received extracts of general information from the Identity Theft Clearinghouse
to track trends and develop process improvement and outreach initiatives for victim assistance.
The IRS also evaluated a sample of complaints in the Identity Theft Clearinghouse related to tax
fraud. However, it found that the data generally did not provide enough details or personal
information needed to support the initiation of an investigation. Management’s complete
response to the draft report is included as Appendix V.

Office of Audit Comment
We acknowledge the coordination now taking place between the Deputy Commissioner for
Operations Support and the Deputy Commissioner for Services and Enforcement and the efforts
that the IRS has taken to reduce the burden on identity theft victims. We also believe that the
effective use of the universal identity theft indicator should reduce the number of multiple
contacts made with taxpayers.
We are concerned, however, that in its response, the IRS did not indicate the responsible officials
or implementation dates for some of its actions. For example, the IRS needs to set specific
action dates for implementing and testing new business rules and the processes needed to carry
out those business rules for all affected programs. In addition, the IRS mentions implementing a
5-year strategy for its Privacy, Information Protection and Data Security office that will include
identity theft issues. However, there is no mention of when this strategy will be implemented,
what milestones will be established, and how its success will be measured.
The IRS provided statistics to show the increased number of tax returns identified by the
Criminal Investigation Division’s Fraud Detection Center involving refund crimes but did not
                                                                                                   4
               Outreach Has Improved, but More Action Is Needed to Effectively
                  Address Employment-Related and Tax Fraud Identity Theft



make it clear which portion of these refund crimes relate to identity theft. The IRS also provided
statistics related to the number of victims associated with the identity theft prosecutions for
Fiscal Years 2005 and 2006. However, the IRS did not provide this information during our audit
or during the discussion of this report. As such, we cannot attest to the accuracy of these
statistics. Given the number of cases reported to the Federal Trade Commission and the IRS, it
is clear that only a small portion are investigated and recommended for prosecution.
We remained concerned about the lack of action on employment-related identity theft cases. The
use of an incorrect Social Security Number for employment results in more government action to
correct the problem than the use of someone else’s complete identity (name and Social Security
Number), even though the latter causes much more burden to the lawful taxpayer. We believe
the IRS should take a more active role in working to stem this problem.
We commend the IRS effort to collaborate with the Federal Trade Commission in outreach
activities and to use extracts of general information from the Identity Theft Clearinghouse to
track trends and develop process improvements and outreach initiatives for victim assistance.
However, we are concerned that the IRS has concluded that the Federal Trade Commission data
are not useful in evaluating or investigating tax fraud or employment-related identity theft.
Because the Identity Theft Clearinghouse is the sole national repository of consumer identity
theft complaints, it should be an important source of data for the Criminal Investigation Division.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                 5
                    Outreach Has Improved, but More Action Is Needed to Effectively
                       Address Employment-Related and Tax Fraud Identity Theft




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Additional Actions Are Needed to Effectively Address
          Employment-Related and Tax Fraud Identity Theft.....................................Page 5
                    Recommendation 1:........................................................Page 9

          The Internal Revenue Service Has Improved Outreach Efforts
          and Documentation Standards ......................................................................Page 10
          Efforts Are Still Needed to Reduce Burden on Identity Theft
          Victims..........................................................................................................Page 12
                    Recommendation 2:........................................................Page 13

          More Information Is Needed to Determine the Impact of
          Identity Theft on Tax Administration ...........................................................Page 14
                    Recommendation 3:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – Outcome Measures...............................................................Page 21
          Appendix V – Management’s Response to the Draft Report .......................Page 23
           Outreach Has Improved, but More Action Is Needed to Effectively
              Address Employment-Related and Tax Fraud Identity Theft




                           Abbreviations

FTC                  Federal Trade Commission
IRS                  Internal Revenue Service
SSN                  Social Security Number
U.S.C. §             United States Code Section
                    Outreach Has Improved, but More Action Is Needed to Effectively
                       Address Employment-Related and Tax Fraud Identity Theft




                                               Background

Identity theft is a growing national problem that increasingly affects tax administration.
Individuals who steal taxpayer identities affect the tax system in two ways.
       •   Fraudulent Tax Returns – An individual may use another person’s Social Security
           Number (SSN) to file a fraudulent tax return in order to steal a tax refund. Subsequently,
           the lawful taxpayer would have to prove his or her identity to correct his or her tax
           liability or refund.
       •   Misreporting of Income – An individual may use another person’s name and SSN to
           obtain employment. Because income earned is reported to the Internal Revenue Service
           (IRS) by the employer, it will appear to the IRS that the lawful taxpayer did not report all
           of his or her income on his or her tax return.
In October 1998, the Identity Theft and Assumption Deterrence Act1 was enacted, which
expanded the criminalization of fraud in connection with identification documents to cover the
unlawful transfer and use of identity. The law defines identity theft as when someone
“…knowingly transfers or uses, without lawful authority, a means of identification of another
person with the intent to commit, or to aid or abet, any unlawful activity that constitutes a
violation of federal law, or that constitutes a felony under any applicable state or local law.”
On May 10, 2006, the President’s Task Force on Identity Theft was established by Executive
Order 13402.2 This Task Force launched a new era in the fight against identity theft.
Recognizing the heavy financial and emotional toll that identity theft exacts from its victims, and
the severe burden it places on the economy, President Bush called for a coordinated approach
among government agencies to combat this crime by having a strategic plan which would aim to
make the Federal Government’s efforts more effective and efficient in the areas of identity theft
awareness, prevention, detection, and prosecution. The Task Force focused on several areas:
       •   Law Enforcement - The Task Force examined the tools law enforcement can use to
           prevent, investigate, and prosecute identity theft crimes; recover the proceeds of these
           crimes; and ensure just and effective punishment of identity thieves.
       •   Education - The Task Force surveyed current education efforts by government agencies
           and the private sector on how individuals and corporate citizens can protect personal data.




1
    Pub. L. No. 105-318, 112 Stat. 3007 (codified in part of 18 U.S.C. §1028).
2
    Source of information about the President’s Task Force can be found at idtheft.gov.
                                                                                                Page 1
                  Outreach Has Improved, but More Action Is Needed to Effectively
                     Address Employment-Related and Tax Fraud Identity Theft



    •    Government Safeguards - Because government must help reduce, rather than
         exacerbate, incidents of identity theft, the Task Force worked with many federal agencies
         to determine how the government can increase safeguards to better secure the personal
         data that it and private businesses hold.
In April 2007, the President’s Identity Theft Task Force3 strategic report recommended a plan
designed to strengthen the efforts of Federal, State, and local law enforcement officers; to
educate consumers and businesses on deterring, detecting, and defending against identity theft; to
assist law enforcement officers in apprehending and prosecuting identity thieves; and to increase
the safeguards used by Federal agencies and the private sector with respect to the personal data
they hold.
The President’s Identity Theft Task Force strategic report noted four major strategies for
preventing and deterring identity theft were (1) establishing a data breach policy for the public
sector, (2) improving data security in the public sector, (3) decreasing the use of SSNs by the
public sector, and (4) publication for a routine use for disclosure of information following a data
breach.
The Federal Trade Commission (FTC) is the primary Federal agency responsible for receiving
identity theft complaints4 and maintains the Identity Theft Clearinghouse.5 According to the
FTC, 56,125 (22 percent) of 258,427 of all reported identity theft complaints in Calendar
Year 2007 resulted from either the filing of a fraudulent tax return or the misuse of someone’s
identity to obtain employment. From Calendar Years 2002 to 2007, the number of fraudulent tax
returns filed as a result of identity theft increased 579 percent. In addition, the number of
complaints resulting from employment-related identity theft more than doubled during the same
time period. Figure 1 provides details on the number of identity theft complaints related to tax
administration received by the FTC between Calendar Years 2002 and 2007.




3
  The Presidents Identity Theft Task Force, Combating Identity Theft A Strategic Plan, April 2007.
4
  Taxpayers may file identity theft complaints by filling out a form on the FTC’s web site, calling the FTC Identity
Theft Hotline, or writing a letter to the Identity Theft Clearinghouse.
5
  The Identity Theft Clearinghouse is the sole national repository of consumer complaints about identity theft.
                                                                                                              Page 2
                     Outreach Has Improved, but More Action Is Needed to Effectively
                        Address Employment-Related and Tax Fraud Identity Theft



                    Figure 1: Identity Theft Complaints Received by the FTC6

                                                                                                    Percentage
                                                         Calendar Year
                                                                                                     Increase
                                                                                                       From
    Identity Theft Complaints     2002       2003       2004       2005        2006       2007      2002-2007

    Total                        161,819    214,905    246,882     255,627    246,124    258,427        60%

    Fraudulent Tax Returns         3,061      8,041       9,563     12,165     15,442     20,782       579%

          Percent of Total         1.9%        3.7%       3.9%       4.8%        6.3%       8.0%

    Employment-Related            15,089     24,084     31,379      31,094     33,869     35,343       134%

          Percent of Total         9.3%       11.2%      12.7%      12.2%      13.8%       13.7%
Source: Federal Trade Commission – Identity Theft Clearinghouse.

In July 2005, the Treasury Inspector General for Tax Administration reported7 that the IRS
lacked a corporate strategy to adequately address identity theft issues. The IRS agreed to
develop (1) updated agency-wide communication tools to be used to educate and assist taxpayers
with information about identity theft, (2) agency-wide standards to ensure the information
taxpayers were asked to provide to substantiate identity theft claims is consistent throughout the
IRS, and (3) specific closing codes for cases involving identity theft that could allow the IRS to
track and monitor the effect of identity theft on tax administration.
In October 2005, the IRS established the Identity Theft Program Office in the Wage and
Investment Division to develop centralized policy and procedural guidance. The Program Office
was responsible for implementing the IRS Enterprise Identity Theft Strategy that is comprised of
the following three components:
      •     Prevention – The IRS Criminal Investigation Division, Refund Crimes Unit, works to
            identify fraudulent tax returns filed by criminals using another person’s tax information
            in order to steal a tax refund.
      •     Outreach – The IRS alerts the public about possible identity theft scams through news
            articles and revised its most widely used tax documents to include identity theft
            information.
      •     Victim Assistance – The IRS revised its internal procedures and worked with the Social
            Security Administration to reduce the time needed to resolve “scrambled” SSNs. When

6
  The Treasury Inspector General for Tax Administration did not analyze the taxpayer complaints on the FTC
Identity Theft Clearinghouse database. There may be some tax fraud complaints included in these numbers resulting
from State income tax returns.
7
  A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft (Reference
Number 2005-40-106, dated July 2005).
                                                                                                         Page 3
               Outreach Has Improved, but More Action Is Needed to Effectively
                  Address Employment-Related and Tax Fraud Identity Theft



       two tax returns are filed under the same SSN and the IRS cannot determine the true
       owner of the SSN, the “scrambled” SSN is sent to the Social Security Administration for
       verification. In the interim months (which previously took up to 2 years), the affected
       taxpayers would not be entitled to credits and/or refunds related to their SSN. The IRS is
       also updating its processes and notices to provide help to taxpayers whose names and
       SSNs were used by an identity thief for employment purposes.
The Identity Theft Program Office was also responsible for conducting detailed Identity Theft
Risk Assessments of 36 IRS processes to identify internal areas that would be susceptible to
identity theft. As a result of these risk assessments, 134 strategies were developed to address
identified risks of which the IRS plans to expedite 3 of these strategies (i.e., Incident Response,
Incident Tracking, and Enterprise-wide Encryption) for immediate implementation.
According to the IRS, the Identity Theft Program was transferred from the Wage and Investment
Division to the IRS Mission Assurance and Security Services function in September 2006. In
May 2007, IRS officials informed us that the new program office was not yet fully staffed. They
also stated that the personnel responsible for the Identity Theft Program Office in the Mission
Assurance and Security Services function had been busy working on Congressional testimony
and implementing an incident response database to track inadvertently disclosed and/or stolen
SSNs from the IRS or its systems. In July 2007, responsibility for the Identity Theft Program
was assigned to the Deputy Commissioner for Operations Support. According to the IRS,
“. . . reporting directly to a Deputy Commissioner will provide this program the ability to reach
across all IRS organizations to ensure that proper attention and discipline is given . . .” to this
important issue.
The focus of our review was on the effect of identity theft on taxpayers and tax administration.
Accordingly, we focused on the oversight provided by the Wage and Investment Division
Identity Theft Program Office and the handling of identity theft issues in the Automated
Substitute for Return, Automated Underreporter, and Withholding Compliance functions. This
review was performed in the Automated Substitute for Return and Automated Underreporter
functions in the Small Business/Self-Employed Division in New Carrollton, Maryland, and the
Identity Theft Program Office, Automated Substitute for Return, Automated Underreporter, and
Withholding Compliance functions in the Wage and Investment Division in Atlanta, Georgia,
during the period December 2006 through July 2007. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                              Page 4
                  Outreach Has Improved, but More Action Is Needed to Effectively
                     Address Employment-Related and Tax Fraud Identity Theft




                                       Results of Review

Additional Actions Are Needed to Effectively Address
Employment-Related and Tax Fraud Identity Theft

Tax fraud identity theft is rarely prosecuted
The IRS Enterprise Identity Theft Strategy for prevention does not include pursuing
individuals using another person’s identity, unless their cases directly relate to tax fraud.
Employment-related fraud cases worked by the Criminal Investigation Division address
employment tax issues but do not address the illegal use of SSNs for employment. The actual
crime of identity theft is investigated by the Criminal Investigation Division only if it was
committed in conjunction with other criminal offenses that have a large tax effect.
The Criminal Investigation Division section of the Internal Revenue Manual8 states that identity
theft can be investigated in conjunction with money laundering and refund fraud. However, it
also states that identity theft should be pursued only if it enhances the overall investigative
strategy. An identity theft violation is not intended to stand alone, but it “must have a direct link
to the substantive tax or the related conspiracy violation that is the focus of the criminal
investigation.” Rarely would it occur that an “identity theft is charged without a companion
substantive tax or related conspiracy violation.”
Figure 2 shows for Fiscal Years 2005 and 2006 the total number of prosecution
recommendations made by the IRS Criminal Investigation Division compared to the total
number of prosecution recommendations made in conjunction with identity theft. The majority
of the cases in which the Criminal Investigation Division recommends prosecution for identity
theft came from the Questionable Refund Program.9




8
  The Internal Revenue Manual is a manual containing the IRS’ internal guidelines.
9
  The Questionable Refund Program was designed to identify fraudulent tax returns, to stop the payment of
fraudulent refunds, and to refer identified fraudulent refund schemes to Criminal Investigation Division field offices.
                                                                                                              Page 5
               Outreach Has Improved, but More Action Is Needed to Effectively
                  Address Employment-Related and Tax Fraud Identity Theft



        Figure 2: Total Prosecution Recommendations in Comparison With
               Identity Theft-Related Prosecution Recommendations
                                                                   Fiscal Year    Fiscal Year
                  Prosecution Recommendations
                                                                      2005           2006
   Total Prosecution Recommendations Made by IRS Criminal
                                                                      2,859          2,720
   Investigation Division
   Prosecution Recommendations Made by IRS Criminal
                                                                       45             55
   Investigation Division That Include Identity Theft

   Percentage                                                         1.6%           2.0%

  Source: Criminal Investigation Management Information System.

In addition, the Criminal Investigation Division works fraud referrals that come in from various
IRS functions, as well as outside interests (e.g., the Department of Justice, taxpayers). IRS
management from the Automated Underreporter, Automated Substitute for Return, and
Withholding Compliance functions stated that identity theft cases are referred to the Criminal
Investigation Division. According to the IRS, the Criminal Investigation Division received only
625 fraud referrals in Fiscal Year 2005 and 603 fraud referrals in Fiscal Year 2006. These
referrals may include, but are not limited to, identity theft cases. However, because there is no
unique coding for identity theft referrals, there is no way to determine if any of these fraud
referral cases were related to identity theft.

More needs to be done to address employment-related identity theft
The use of another person’s SSN to obtain employment is often done in conjunction with a name
different from Social Security Administration records. This is known as an SSN/name
mismatch. In these instances, the IRS and the Social Security Administration do not associate
the income and benefits with the lawful taxpayer. The number of Wage and Tax Statements
(Form W-2) with SSN/name mismatches is substantial. The Social Security Administration
maintains an Earnings Suspense File for wage information reported on the
Forms W-2 where the SSN and name do not match. This file contains approximately
264 million mismatched Forms W-2 related to $586 billion in wages through the end of Calendar
Year 2004. In some cases, the Social Security Administration has tried to correct these
mismatches by notifying employers of the errors on the Forms W-2 through a “no match” letter.
Employers who receive these letters are requested to take steps to correct the mismatch issue for
each SSN that failed verification with Social Security Administration records. If the employer
does not make an effort to correct the Forms W-2, the IRS can assess a penalty. Both the




                                                                                             Page 6
                 Outreach Has Improved, but More Action Is Needed to Effectively
                    Address Employment-Related and Tax Fraud Identity Theft



Treasury Inspector General for Tax Administration and the Government Accountability Office
have issued reports that address the tax problems related to SSN/name mismatches.10
While SSN/name mismatches are a significant problem for the IRS and the Social Security
Administration, the more serious problem develops for the lawful taxpayer when both their name
and SSN are used by someone else to gain employment. No action is taken to stop someone
from continuing to commit employment-related identity theft using another person’s SSN and
name. The IRS does not actively try to identify or stop an individual from committing identity
theft. Moreover, the IRS does not notify the employer of the problem of their employee using
someone else’s identity. Because the IRS and the Social Security Administration will assume
the information on the Forms W-2 is accurate, the earnings resulting from the identity theft will
be attributed to the lawful taxpayers for determining both Social Security benefits and tax
liabilities. The IRS generally does not pursue the taxes that may be due on income earned using
a stolen identity.
For example, wages earned by individuals using another person’s identity would not be reported
on the lawful taxpayer’s tax return. Because the name and SSN on the Forms W-2 match IRS
records, the IRS would assume the unreported wages belonged to the taxpayer. As a result, the
IRS Automated Underreporter function 11 would send a notice to the taxpayer for the
underreporting of income. If the taxpayer provides adequate documentation to prove identity
theft, the IRS will remove the income and tax liability from the taxpayer’s account and close the
case. For Tax Years 2003 and 2004, more than 27,000 lawful taxpayers had to resolve
underreporter problems with the IRS Automated Underreporter function as a result of
employment-related identity theft. For Tax Year 2004 alone, approximately $550 million in
wages was reported for identity theft victims contacted by the Automated Underreporter
function. We estimate approximately $268 million (49 percent) of these total wages resulted
from identity theft.12
During discussions with IRS management, they informed us that the IRS is unable to do more to
stop continued use of someone’s identity in employment-related identity theft cases. They
provided the following reasons:
     •   Notifying employers that their employee is using another person’s identity is not
         permissible because it would be an unlawful disclosure of tax information.


10
   Mismatched Names and Identification Numbers on Information Documents Could Undermine Strategies for
Reducing the Tax Gap (Reference Number 2007-30-159, dated August 31, 2007) and TAX ADMINISTRATION: IRS
Needs to Consider Options for Revising Regulations to Increase the Accuracy of Social Security Numbers on Wage
Statements (GAO-04-712, dated August 2004).
11
   The Automated Underreporter function issues notices informing taxpayers of discrepancies found when matching
information return data received from third parties with income and deductions reported on tax returns.
12
   Since multiple individuals committing identity theft are using the same taxpayer name and SSN, we were not able
to estimate the tax effect resulting from the individual identity thefts.
                                                                                                          Page 7
                   Outreach Has Improved, but More Action Is Needed to Effectively
                      Address Employment-Related and Tax Fraud Identity Theft



     •   The IRS does not have sufficient enforcement resources to address most of these cases.
     •   The responsibility for employment-related identity theft cases is not within the
         jurisdiction of the IRS. Further, due to disclosure rules, IRS officials expressed concerns
         about sharing information on these cases with other agencies.
     •   It would not be worthwhile to pursue employment-related identity theft cases for
         unreported tax liabilities because, according to IRS officials, the taxes owed on most of
         these cases are not significant.
     •   The FTC Identity Theft Clearinghouse is not reliable; therefore, the Criminal
         Investigation Division does not use the FTC database to evaluate whether additional
         actions are needed to address complaints of tax-related identity theft.
While the IRS must often make resource allocation decisions based upon the tax effect of
those resources, areas that affect taxpayer rights must also be addressed. In tax fraud and
employment-related identity theft cases, the IRS is usually the first agency to become aware of
the problem and has the information needed to address the identity theft. If the IRS takes no
additional action to stop further use of another person’s identity, then there is no deterrent to
keep the problem from spreading.
The President’s Task Force on Identity Theft recommends that law enforcement agencies
continue to conduct enforcement initiatives that focus exclusively or primarily on identity theft.
However, the Task Force recognized that there are limitations on the number of cases that can be
prosecuted in the courts. Whether or not substantial increases in prosecutions are achievable,
investigation and authentication of identities in the instances of reported identity theft would be a
significant step in stopping the continued use of another person’s identity, especially in
employment-related cases.
Use of another person’s identity for employment results in the misreporting of income which
affects income tax and social security tax as well as other employment taxes. Agencies with
jurisdiction over these matters include the IRS and the Social Security Administration.
Consequently, coordination between these agencies is important to ensure that Federal records
related to income earned by a taxpayer are correct and to ensure appropriate law enforcement.
Federal law13 allows the Social Security Administration to pursue criminal penalties for an
individual who fraudulently obtains, uses, or represents a SSN to be theirs. There are a number
of exceptions in the Internal Revenue Code that allow disclosure of taxpayer information in order
to investigate illegal activity. If the IRS believes these exceptions are not adequate for the
purposes of combating identity theft, IRS management should seek legislative remedy through
the Office of the Assistant Secretary of the Treasury for Tax Policy.

13
  42 U.S.C. §408 provides for criminal penalties for an individual who fraudulently buys, sells, or possesses a
Social Security card with intent to sell or alter and where it is also a violation of this statute to disclose, use, or
compels the disclosure of the SSN of any person in violation of the laws of the United States.
                                                                                                                     Page 8
              Outreach Has Improved, but More Action Is Needed to Effectively
                 Address Employment-Related and Tax Fraud Identity Theft



In regard to IRS management’s concerns about the reliability of data in the FTC Identity Theft
Clearinghouse, because the IRS has not received or evaluated this data, it is not clear how IRS
management concluded the data were unreliable. We did not audit the information in the
database. However, we traced a limited number of underreporter cases that were related to
identity theft back to the Identity Theft Clearinghouse, and the data on these cases appeared
to be reported accurately. The complaints in the database would need to be further evaluated
and investigated by the IRS to determine whether the complaints can be substantiated. Such an
evaluation could help the IRS in developing a strategy to stem the increase in tax fraud and
employment-related cases.

Recommendation
Recommendation 1: The Deputy Commissioner for Operations Support should coordinate
with the Deputy Commissioner for Services and Enforcement to develop and implement a
strategy to address employment-related and tax fraud identity theft. This should include
coordinating with other Federal agencies such as the FTC and the Social Security Administration
to evaluate and investigate identity theft allegations related to tax administration.
       Management’s Response: IRS management agreed that aggressive pursuit of
       identity theft criminals is a deterrent to identity theft. The IRS is developing a 5-year
       strategy for the Privacy, Information Protection and Data Security office, and will
       continue to improve strategies focused on tax fraud identity theft. The Criminal
       Investigation Division is increasing the recommendations for prosecutions of identity
       theft cases under traditional statutes within the IRS’ jurisdiction as directed by the
       Department of Justice Tax Division.
       The President’s Identity Theft Task Force identified the Social Security Administration
       Office of Inspector General and the Department of Homeland Security as lead agencies to
       address identity theft. The IRS will work with these agencies to implement the Task
       Force recommendations.
       IRS management does not plan to more actively try to identify or stop individuals from
       committing employment-related identity theft and notify employers of their employees
       using someone else’s identity. It stated that under Internal Revenue Code Section 6103,
       the IRS is broadly restricted from sharing taxpayer information with third parties. The
       IRS provided a copy of this report to the Office of the Assistant Secretary of the Treasury
       for Tax Policy to evaluate whether legislative remedy should be sought.
       Recently, the IRS obtained data from the FTC Identity Theft Clearinghouse and
       evaluated a sample of the Fraudulent Tax Return Filed complaints. The Criminal
       Investigation Division concluded that the data generally did not provide enough details or
       personal information to support the initiation of an investigation and, according to the
       FTC, the information has not been verified or authenticated by the FTC. Consequently,

                                                                                             Page 9
                   Outreach Has Improved, but More Action Is Needed to Effectively
                      Address Employment-Related and Tax Fraud Identity Theft



           the Criminal Investigation Division generally relies on alternative data sources to support
           specific cases recommended for criminal tax prosecutions.
           Office of Audit Comment: We acknowledge the coordination now taking place
           between the Deputy Commissioner for Operations Support and the Deputy Commissioner
           for Services and Enforcement and the efforts that the IRS has taken to reduce the burden
           on identity theft victims.
           Nonetheless, we remain concerned about the lack of action on employment-related
           identity theft cases. The use of an incorrect SSN for employment results in more
           government action to correct the problem than the use of someone else’s complete
           identity (name and SSN) even though the latter causes much more burden to the lawful
           taxpayer. We believe that the IRS, in coordination with the Social Security
           Administration, should take a more active role in working to stem this problem.
           We commend the IRS’ effort to collaborate with the FTC in outreach activities and to use
           extracts of general information in the Identity Theft Clearinghouse to track trends and
           develop process improvements and outreach initiatives for victim assistance. However,
           we are concerned that the IRS has concluded that the FTC data are not useful in
           evaluating or investigating tax fraud or employment-related identity theft. The Identity
           Theft Clearinghouse is the sole national repository of consumer identity theft complaints.
           It should be an important source of data for the Criminal Investigation Division.

The Internal Revenue Service Has Improved Outreach Efforts and
Documentation Standards
Since our July 2005 report, the Identity Theft Program Office has focused mostly on its
Enterprise Identity Theft Strategy for public outreach. To date, the Program Office has been
responsible for:
       •   Revising widely used documents, such as the Form 104014 Instruction Booklet and Your
           Federal Income Tax (Publication 17), to include information on identity theft.
       •   Creating and maintaining an identity theft webpage on IRS.gov that provides taxpayers
           with updated information regarding identity theft issues and also provides links to other
           Federal Government agencies (e.g., the Social Security Administration and the FTC) that
           may be of assistance to victims of identity theft.
       •   Creating the DVD Identity Theft Outsmarting the Crooks and the publication Identity
           Theft Prevention and Victim Assistance that provides valuable information to taxpayers
           concerning identity theft issues.


14
     U.S. Individual Income Tax Return.
                                                                                              Page 10
                 Outreach Has Improved, but More Action Is Needed to Effectively
                    Address Employment-Related and Tax Fraud Identity Theft



     •   Issuing public service announcements stating that the IRS does not communicate with
         taxpayers via email in an effort to reduce the number of identity thefts resulting from
         “phishing.”15
     •   Partnering with the Treasury Inspector General for Tax Administration’s Office of
         Investigation to create the “Phishing In-Box,” which is an email address to which
         taxpayers can send suspicious emails they believe may be part of a “phishing” scam.
     •   Giving numerous identity theft presentations to the tax preparer community at various
         events, such as the IRS tax forums.
The Identity Theft Program Office was also involved in establishing the Identity Theft Policy
Statement which states that the IRS will take the necessary steps to provide assistance to identity
theft victims and recognize the need for timely resolution of taxpayer account issues caused by
identity theft.

Documentation standards have been improved
In Fiscal Year 2006, after conducting an extensive Identity Theft Risk Assessment, the IRS
found that its inconsistent documentation standards, which we reported on in our July 2005
report, might have resulted in unnecessary burden for taxpayers attempting to resolve adverse tax
situations caused by identity theft. The IRS acknowledged that under prior procedures,
taxpayers were required to present different sets of documentation each time they dealt with
different IRS functional groups. As a result, in June 2007, the IRS issued a memorandum to its
employees that established a consistent agency-wide standard when requesting written
documentation from taxpayers to resolve their identity theft cases. Specifically, these new
documentation requirements consist of two parts.
     •   Authentication of Identity – a copy of a valid United States Federal or State government
         issued form of identification (e.g., driver’s license, State identification card, social
         security card, passport, etc.).
     •   Evidence of Identity Theft – a copy of a police report or an Identity Theft Affidavit filed
         with the FTC.




15
  Phishing is a scam in which Internet fraudsters send email messages to trick unsuspecting victims into revealing
personal and financial information that can be used to steal the victims’ identity.
                                                                                                           Page 11
                    Outreach Has Improved, but More Action Is Needed to Effectively
                       Address Employment-Related and Tax Fraud Identity Theft



Efforts Are Still Needed to Reduce Burden on Identity Theft Victims
The IRS Enterprise Identity Theft Strategy for victim assistance has been insufficient in reducing
burden for taxpayers victimized by identity theft. In general, it can be a very frustrating and time
consuming process for taxpayers who are identity theft victims to resolve their issues with the
IRS.

Some identity theft victims were unnecessarily contacted multiple times by
various functions
The IRS Automated Underreporter function uses unique closing codes on its Automated
Underreporter system to identify cases closed as identity theft. However, adding these closing
codes was not sufficient to stop multiple contacts with the taxpayers.
As of November 2006, the IRS closed 12,617 Tax Year 2003 cases and 14,729 Tax Year 2004
cases on its Automated Underreporter system as a result of identity theft. Our analysis of these
Tax Year 2003 and 2004 cases found that 449 (3.6 percent of the Tax Year 2003 identity theft
cases) were selected and closed as identity theft for the same underreported issue in both years.
We found an additional 184 cases that were similarly closed as identity theft in Tax Year 2005.
In each of these cases, taxpayers were contacted even though identity theft closing codes were
already posted on the Automated Underreporter system for a prior year underreporting issue.
Figure 3 provides details on the 633 identity theft cases selected and closed for the same
underreported issue in 2 or more years by the Automated Underreporter function.
        Figure 3: Taxpayers Contacted by the Automated Underreporter Function
                for the Same Issue in 2 or More Years Due to Identity Theft

            Business Operating Division                                      Number of Taxpayers

            Small Business/Self-Employed Division                                           48

            Wage and Investment Division                                                   585

                                      Total                                                633
                                          16
          Source: Individual Master File and Automated Underreporter system extract provided by the IRS.

The Automated Underreporter function is currently finishing work on its inventory of Tax Year
2005 cases. Our analysis of the Individual Master File for these cases identified an additional
607 Tax Year 2005 cases open as of March 2007 where the taxpayers were contacted for the
same underreported issue that was previously closed as identity theft in one or more of the prior
years. Because underreported income resulting from employment-related identity theft tends to

16
     The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                       Page 12
                 Outreach Has Improved, but More Action Is Needed to Effectively
                    Address Employment-Related and Tax Fraud Identity Theft



be a multi-year issue, we believe these Tax Year 2005 cases will be closed as identity theft as
well. In addition, we identified another 34 Tax Year 2005 cases that were closed as “no change”
for the same underreported issues that had been previously closed as identity theft in a prior year.
Once the Automated Underreporter cases were selected, examiners manually screened them to
verify that income was underreported. Currently, the individual case screens on the Automated
Underreporter system do not show prior year closing codes. Without performing additional
research on the Individual Master File, examiners would not know if a taxpayer’s case was
closed by the Automated Underreporter function as identity theft in a prior year. Consequently,
1,274 identity theft victims were unnecessarily contacted multiple times by the Automated
Underreporter function. We estimate for Tax Year 2004, the IRS was unable to make
approximately $440,020 in potential tax assessments17 as a result of working these unproductive
cases and not working more productive Automated Underreporter function cases. If the IRS
does not correct this problem, we estimate that over 5 years $2.2 million in tax assessments may
be lost.
In addition, we identified another 55 Tax Year 2003 identity theft cases closed by the Automated
Underreporter function in which the taxpayers were subsequently contacted by the Withholding
Compliance function for underwithholding issues in Tax Year 2004. This occurred because the
Withholding Compliance function case creation criterion does not consider prior year Automated
Underreporter function identity theft closing codes. In responding to our results, the
Withholding Compliance function agreed that other IRS functions’ identity theft codes should be
considered.

Recommendation
Recommendation 2: The Deputy Commissioner for Operations Support should coordinate
with the Deputy Commissioner for Services and Enforcement to:
     • Update the individual case screens on the Automated Underreporter system to display
       prior year closing codes.
     • Ensure revision of the Withholding Compliance function case selection criteria to
       incorporate special handling of identity theft victims.
        Management’s Response: IRS management agreed that it should continue to seek
        opportunities to improve business processes and technology systems to further reduce
        taxpayer burden and eliminate multiple contacts of identity theft victims. The IRS is
        currently developing a 5-year strategy for its Privacy, Information Protection and Data


17
 The $440,020 was calculated by multiplying the 449 identity theft taxpayers that were contacted by the
Automated Underreporter function for the same compliance issues in Tax Years 2003 and 2004 by the average
Automated Underreporter function assessment rate for Tax Year 2004, which was $980.
                                                                                                     Page 13
               Outreach Has Improved, but More Action Is Needed to Effectively
                  Address Employment-Related and Tax Fraud Identity Theft



       Security office that will include identity theft issues. In January 2008, the IRS
       implemented the universal identity theft indicator, which is placed on a taxpayer’s
       account when the taxpayer self-identifies as an identify theft victim and provides the
       proper documentation to verify his or her identity. The use of this code standardizes the
       identification and tracking of identity theft accounts across multiple tax modules in all
       IRS functions. This solution supersedes the need to update the individual Automated
       Underreporter system case screens. In addition, the IRS will develop business rules for
       various programs, including the Criminal Investigation Division, Refund Crimes Unit,
       and the Automated Underreporter and Withholding Compliance functions, to apply
       unique treatments to cases when the universal identity theft indicator is present.
       Office of Audit Comment: We acknowledge that the effective use of the new
       universal identity theft indicator should reduce the number of multiple contacts with
       taxpayers in both the Automated Underreporter and Withholding Compliance functions.
       However, the IRS needs to set specific action dates for implementing and testing new
       business rules and the processes needed to carry out those business rules for all affected
       programs. In addition, the IRS mentions implementing a 5-year strategy for its Privacy,
       Information Protection and Data Security office that will include identity theft issues.
       However, there is no mention of when this strategy will be implemented, what milestones
       will be established, and how its success will be measured.

More Information Is Needed to Determine the Impact of Identity Theft
on Tax Administration
The IRS currently lacks the comprehensive data needed to determine the impact identity theft has
on tax administration. However, the IRS is in the process of establishing a universal identity
theft indicator on the Individual Master File. The purpose of this indicator will be to centrally
track incidents of identity theft, protect Department of the Treasury revenue threatened by
identity fraud, and reduce taxpayer burden related to identity theft. The IRS stated the universal
identity theft indicator will be online in Calendar Year 2008.
Since Fiscal Year 2005, only the Automated Underreporter function has been able to identify
taxpayer cases closed as identity theft. The Automated Underreporter function uses
program-specific closing codes to mark incidents of identity theft on its Automated
Underreporter system. The program-specific closing codes will be used to generate the universal
identity theft indicator on the Individual Master File for these Automated Underreporter function
cases. However, the Automated Underreporter function does not consistently use these codes on
multiple issue identity theft closures. Automated Underreporter function personnel use identity
theft closing codes only on cases that result in a no change in the tax liability. This occurs
because Automated Underreporter function personnel do not have a choice of closing codes that
allow for multiple issue case closures involving identity theft.


                                                                                          Page 14
                Outreach Has Improved, but More Action Is Needed to Effectively
                   Address Employment-Related and Tax Fraud Identity Theft



For example, if a taxpayer was selected for a combination of underreported wages and interest
but proves the underreported wages were a result of identity theft, the IRS would still assess
additional tax on the underreported interest income. Because a tax assessment was made on the
underreported interest income, the Automated Underreporter function would not code this case
as identity theft on the Automated Underreporter system. As a result, taxpayers with some
underreported wage issues resulting from identity theft may be unnecessarily burdened by future
contacts from the IRS. In addition, the number of identity theft closures made by the Automated
Underreporter function could be significantly understated as a result of single issues on multiple
issue case closures not being coded individually as identity theft.
To put this into perspective, the Automated Underreporter function selected almost 4.5 million
cases to review from Tax Year 2005. According to the IRS, most of the selection categories
could include multiple issue cases. Because the Automated Underreporter function does not
have an identity theft closing code for multiple issue cases, none of the multiple issue cases
would be coded as identity theft if there was a tax assessment made on one of the underreported
issues.
To date, the IRS’ actions related to identity theft have been mostly reactive in assisting taxpayers
when they contact the IRS as a result of a notice and/or other type of enforcement action. In
many instances, this is the first time the taxpayer learns that he or she is a victim of identity theft.
Due to the lack of identity theft information available, the IRS is unable to identify specific
trends, measure the success of the Enterprise Identity Theft Strategy, and take proactive steps to
reduce the burden on impacted taxpayers.

Recommendation
Recommendation 3: The Deputy Commissioner for Operations Support should coordinate
with the Deputy Commissioner for Services and Enforcement to establish closing codes for
multiple issue cases on the Automated Underreporter system that will allow for individual
underreporting issues to be closed as identity theft.
        Management’s Response: IRS management agreed that additional information
        about identity theft cases is needed to determine the impact of identity theft on tax
        administration. In January 2008, the IRS implemented the universal identity theft
        indicator to centrally track incidents of identity theft, protect revenue threatened by
        identity fraud, and reduce taxpayer burden related to identity theft. The universal identity
        theft indicator supersedes the need for the Automated Underreporter Program to develop
        a new system to report multiple closing codes. The universal identity theft indicator and
        the closing codes will also be used as factors in the selection and prioritization of
        Automated Underreporter function cases in future years.




                                                                                               Page 15
                Outreach Has Improved, but More Action Is Needed to Effectively
                   Address Employment-Related and Tax Fraud Identity Theft



        Office of Audit Comment: New Automated Underreporter Program procedures18
        provide for manual input of the universal identity theft indicator in multiple issue cases
        when one of the issues involves identity theft. If this process operates as intended, it
        should be sufficient to address our recommendation.




18
 Internal Revenue Manual Procedural Update No. C IMF 080099 dated January 28, 2008, and Internal Revenue
Manual Procedural Update No. C IMF 080108 dated January 30, 2008.




                                                                                                  Page 16
                    Outreach Has Improved, but More Action Is Needed to Effectively
                       Address Employment-Related and Tax Fraud Identity Theft



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall audit objective was to evaluate the effectiveness of the IRS’ actions in assisting
taxpayers victimized by identity theft with their current and future tax compliance issues and in
pursuing action against individuals responsible for employment-related and tax fraud identity
theft. Unless otherwise noted, our limited tests of the reliability of data obtained from IRS
systems did not identify any errors. We tested the reliability of the data by scanning the data
received for blank, incomplete, illogical, or improper data. In addition, we traced a judgmental
sample for each data set to the source IRS files to ensure accuracy. We did not perform any
testing of internal controls over the systems that were the sources of our data. To accomplish the
objective, we:
I.         Determined if the IRS effectively addresses the current and future tax compliance issues
           of taxpayers identified as victims of identity theft by interviewing and obtaining
           documentation from the Identity Theft Program Office and the Automated Substitute for
           Return, Automated Underreporter, and Withholding Compliance functions about how the
           IRS processes identity theft cases.
           We researched the FTC web site and reviewed documentation to determine the
           information captured by the FTC Identity Theft Clearinghouse1 and the Identity Theft
           Affidavit.
           We researched the Social Security Administration web site and reviewed documentation
           to determine its guidelines for SSNs that do not match.
II.        Identified the number of taxpayers who were contacted in multiple years by the
           Automated Underreporter function concerning the same identity theft issue. We analyzed
           the Tax Years 2003 and 2004 Automated Underreporter function identity theft cases and
           identified taxpayers who were contacted for the same identity theft issue for both years.
           In addition, we queried the Tax Year 2005 Individual Master File2 and an IRS-provided
           Automated Underreporter system extract and identified previously coded identity theft
           taxpayers selected again for the same issue.
III.       Identified the number of identity theft victims who were contacted by the Withholding
           Compliance function during Fiscal Year 2006 after they had substantiated identity theft
           with the Automated Underreported function for Tax Years 2003 and/or 2004 for wage
           issues.

1
    The Identity Theft Clearinghouse is the sole national repository of consumer complaints about identity theft.
2
    The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                              Page 17
             Outreach Has Improved, but More Action Is Needed to Effectively
                Address Employment-Related and Tax Fraud Identity Theft



IV.   Determined what actions the IRS takes to identify individuals using another person’s
      identity by interviewing and obtaining documentation from the Identity Theft Program
      Office and the Automated Substitute for Return, Automated Underreporter, and
      Withholding Compliance functions.
V.    Determined if the IRS effectively investigates identity theft cases for criminal
      prosecution by interviewing Criminal Investigation Division management to determine
      the IRS’ jurisdiction for investigating identity theft cases for criminal prosecution and
      obtained statistics of identity theft cases.
VI.   Determined if the IRS effectively monitors and measures the success of the Identity Theft
      Program by interviewing and obtaining documentation from the Identity Theft Program
      Office and Automated Substitute for Return, Automated Underreporter, and Withholding
      Compliance functions.




                                                                                         Page 18
             Outreach Has Improved, but More Action Is Needed to Effectively
                Address Employment-Related and Tax Fraud Identity Theft



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Marybeth Schumann, Director
Bryce Kisler, Director (Acting)
Alan Lund, Audit Manager (Acting)
Julia Tai, Lead Auditor
Sharon Summers, Senior Auditor
Jean Kao, Auditor




                                                                                   Page 19
             Outreach Has Improved, but More Action Is Needed to Effectively
                Address Employment-Related and Tax Fraud Identity Theft



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
Chief, Privacy, Information Protection and Data Security OS:PIPDS
Director, Campus Filing and Payment Compliance, Small Business/Self-Employed Division
   SE:S:CCS
Director, Campus Reporting Compliance, Small Business/Self-Employed Division SE:S:CCS
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Program Manager, Automated Underreporter Program, Wage and Investment Division
   SE:W:CP:RC:AUR
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   GAO/TIGTA Liaison, Deputy Commissioner for Operations Support OS
   GAO/TIGTA Liaison, Deputy Commissioner for Services and Enforcement SE
   GAO/TIGTA Liaison, National Taxpayer Advocate TA
   GAO/TIGTA Liaison, Commissioner, Small Business/Self-Employed Division SE:S
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 20
                    Outreach Has Improved, but More Action Is Needed to Effectively
                       Address Employment-Related and Tax Fraud Identity Theft



                                                                                          Appendix IV

                                        Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Increased Revenue – Potential; $2.2 million in additional tax assessments over 5 years could
       result if the Automated Underreporter function worked productive cases instead of repeatedly
       contacting taxpayers victimized by identity theft (see page 12).

Methodology Used to Measure the Reported Benefit:
We computed the potential increase in tax assessments if the Automated Underreporter function
had worked more productive cases based on the 449 Tax Year 2004 cases closed as identity theft
for the same underreported issues that were closed as identity theft in a prior year. We applied
the IRS’ reported $980 average Automated Underreporter assessment per case to the 449 cases to
arrive at $440,020 (449 cases x $980 per case) in assessments per year. If the IRS does nothing
to correct the problem, we project approximately $2.2 million ($440,020 x 5 years) will be lost
over 5 years.

Type and Value of Outcome Measure:
•      Taxpayer Burden – Potential; 1,329 taxpayers were unnecessarily contacted multiple times
       by the IRS (see page 12).

Methodology Used to Measure the Reported Benefit:
We analyzed the Individual Master File1 and a data extract of the Automated Underreporter
system for Tax Years 2003 and 2004. We identified 633 taxpayers who were contacted multiple
times by the Automated Underreporter function for the same underreported issues that were
closed as identity theft in 2 or more years. We also found an additional 607 Tax Year 2005 cases
that were still open as of March 2007 that may be closed as identity theft, and another 34 Tax



1
    The IRS database that maintains transactions or records of individual tax accounts.



                                                                                               Page 21
              Outreach Has Improved, but More Action Is Needed to Effectively
                 Address Employment-Related and Tax Fraud Identity Theft



Year 2005 cases closed as “no change” after contacting the taxpayers for the same underreported
issues that were closed as identity theft in a prior year.
We also analyzed the Individual Master File to identify taxpayers to whom the Withholding
Compliance function had issued underwithholding letters. We matched those taxpayers to a data
extract of the Automated Underreporter system for Tax Years 2003 and 2004. We found
55 taxpayers whose Tax Year 2003 cases the Automated Underreporter function had closed as
identity theft who were subsequently contacted by the Withholding Compliance function for
underwithholding problems resulting from the same identity theft issue.




                                                                                       Page 22
   Outreach Has Improved, but More Action Is Needed to Effectively
      Address Employment-Related and Tax Fraud Identity Theft



                                                      Appendix V

Management’s Response to the Draft Report




                                                            Page 23
Outreach Has Improved, but More Action Is Needed to Effectively
   Address Employment-Related and Tax Fraud Identity Theft




                                                         Page 24
Outreach Has Improved, but More Action Is Needed to Effectively
   Address Employment-Related and Tax Fraud Identity Theft




                                                         Page 25
Outreach Has Improved, but More Action Is Needed to Effectively
   Address Employment-Related and Tax Fraud Identity Theft




                                                         Page 26
Outreach Has Improved, but More Action Is Needed to Effectively
   Address Employment-Related and Tax Fraud Identity Theft




                                                         Page 27
Outreach Has Improved, but More Action Is Needed to Effectively
   Address Employment-Related and Tax Fraud Identity Theft




                                                         Page 28
Outreach Has Improved, but More Action Is Needed to Effectively
   Address Employment-Related and Tax Fraud Identity Theft




                                                         Page 29
Outreach Has Improved, but More Action Is Needed to Effectively
   Address Employment-Related and Tax Fraud Identity Theft




                                                         Page 30
Outreach Has Improved, but More Action Is Needed to Effectively
   Address Employment-Related and Tax Fraud Identity Theft




                                                         Page 31
Outreach Has Improved, but More Action Is Needed to Effectively
   Address Employment-Related and Tax Fraud Identity Theft




                                                         Page 32
